Sarah Erickson André
Partner
T 213-629-6076
sandre@nixonpeabody.com
300 S. Grand Avenue, Suite 4100
Los Angeles, CA 90071-3151
213-629-6000

June 2, 2021
The Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE: David Cassirer v. Thyssen-Bornemisza Collection Foundation, No. 20-1566
Dear Mr. Harris:
I represent the Respondent in the above-referenced matter. The petition for a writ of certiorari in
this case was filed on May 6, 2021. On May 14, 2021, Respondent filed a waiver of right to
respond. On May 24, 2021, you issued a letter requesting that Respondent file a response to the
petition for writ of certiorari not later than June 23, 2021. Respondent respectfully requests, under
Rules 15.3 and 30.4, an extension of thirty-seven (37) days, to and including, July 30, 2021, to file
its brief in opposition.
This extension is necessary because the attorneys with principal responsibility for the preparation
of the brief are heavily engaged with the press of other matters, including numerous appeals
pending in various appellate courts, including this Court. The extension requested will also allow
Respondent time to consider and, if necessary, respond to the brief amici curiae filed in this case
on May 24, 2021.
I have conferred with Counsel of Record for the Petitioners who consents to an extension of only
thirty (30) days – not the thirty-seven (37) days requested by Respondent. An extension until July
30, 2021, however, will not prejudice Petitioners or the Court, as the petition will be considered at
the same conference, regardless of whether the brief in opposition is filed on July 23, 2021, or July
30, 2021. Thank you for your consideration of this request.
Sincerely,

Sarah Erickson André

cc:

David Boies, Esq., Counsel of Record for Petitioners

